No. 19-66
INTHE

GEORGE Q. RICKS,

Petitioner,
V.
STATE OF IDAHO CONTRACTORS BOARD, et al.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
IDAHO COURT OF APPEALS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I Daniel P. Kearney, Jr., a member
of the bar of this Court, certify that the accompanying Brief for Amici Curiae General
Conference of Seventh-Day Adventists, Church of God in Christ, The Church of Jesus
Christ of Latter-Day Saints, Ethics and Religious Liberty Commission, The Lutheran
Church-Missouri Synod, and Union of Orthodox Jewish Congregations of America in
Support of Petitioner contains 5,310 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.l(d).
Executed on August 12, 2019.

f)�'f Kl�;Jr./W
DANIEL P. KEARNEY,JR.
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

